                 Department of Veterans Affairs
                 Office of Inspector General


                   Office of Healthcare Inspections

Report No. 14-00240-129


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                at 

         Southern Arizona 

      VA Health Care System 

          Tucson, Arizona 





April 28, 2014

                       Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                     CBOC and PCC Reviews at Southern Arizona VA Health Care System, Tucson, AZ



                                            Glossary
                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EOC        environment of care
                       IT         information technology
                       MH         mental health
                       MM         medication management
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Team
                       PCC        primary care clinic
                       RN         registered nurse
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                            CBOC and PCC Reviews at Southern Arizona VA Health Care System, Tucson, AZ



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          2


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     6

  MM ..........................................................................................................................    8

  DWHP Proficiency ..................................................................................................              9


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                           10

  B. PACT Compass Metrics ....................................................................................                    12

  C. VISN Director Comments ..................................................................................                    16

  D. Facility Director Comments ...............................................................................                   17

  E. OIG Contact and Staff Acknowledgments .........................................................                              21

  F. Report Distribution .............................................................................................            22

  G. Endnotes ...........................................................................................................         23





VA OIG Office of Healthcare Inspections
                     CBOC and PCC Reviews at Southern Arizona VA Health Care System, Tucson, AZ



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted site visits during the week of March 3, 2014, at the following
CBOCs, which are under the oversight of the Southern Arizona VA Health Care System
and Veterans Integrated Service Network 18:

       Casa Grande CBOC, Casa Grande, AZ

       Green Valley CBOC, Green Valley, AZ

       Safford CBOC, Safford, AZ

Review Results: We conducted four focused reviews and had no findings for the
Designated Women’s Health Providers’ Proficiency review.                However, we made
recommendations in the following three review areas:

Environment of Care. Ensure that:

   	    The door to the examination room designated for women veterans is equipped
         with an electronic or manual lock at the Casa Grande CBOC.

   	    Processes are strengthened to ensure women veterans can access
         gender-specific restrooms without entering public areas at the Casa Grande,
         Green Valley, and Safford CBOCs.

   	    The information technology server closets at the Green Valley and Safford
         CBOCs are maintained according to information technology safety and security
         standards.

Alcohol Use Disorder. Ensure that CBOC/PCC:

   	    Staff document a plan to monitor the alcohol use of patients who decline referral
         to specialty care.

   	    Registered Nurse Care Managers receive motivational interviewing and health
         coach training within 12 months of appointment to Patient Aligned Care Teams.

Medication Management. Ensure that CBOC/PCC staff:

   	    Document that medication reconciliation was completed at each episode of care
         where the newly prescribed fluoroquinolone was administered, prescribed, or
         modified.




VA OIG Office of Healthcare Inspections                                                      i
                     CBOC and PCC Reviews at Southern Arizona VA Health Care System, Tucson, AZ


   	   Document the evaluation of patient’s level of understanding for the medication
        education.

Comments
The VISN and Facility Directors agreed with the CBOC and PCC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 16–20, for the full text of the Directors’ comments.) We will follow up on
the planned actions until they are completed.




                                                        JOHN D. DAIGH, JR., M.D. 

                                                       Assistant Inspector General for 

                                                          Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                      ii
                         CBOC and PCC Reviews at Southern Arizona VA Health Care System, Tucson, AZ



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted onsite inspections, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspections were only conducted at randomly selected CBOCs that had
not been previously inspected.a Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




a
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                          1
                        CBOC and PCC Reviews at Southern Arizona VA Health Care System, Tucson, AZ


Table 1. CBOC/PCC Focused Reviews and Study Populations

      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C scoreb and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH primary care providers designated as DWHPs as of
                               October 1, 2012, and who remained as DWHPs until
                               September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




b
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0–12.


VA OIG Office of Healthcare Inspections                                                                              2
                              CBOC and PCC Reviews at Southern Arizona VA Health Care System, Tucson, AZ



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.1

We reviewed relevant documents and conducted physical inspections of the Casa Grande,
Green Valley and Safford CBOCs. The table below shows the areas reviewed for this topic.
The areas marked as NM did not meet applicable requirements and needed improvement. Any
items that did not apply to this facility are marked NA.
Table 2. EOC

NM                      Areas Reviewed                                    Findings
       The CBOC’s location is clearly identifiable
       from the street as a VA CBOC.
       The CBOC has interior signage available that
       clearly identifies the route to and location of
       the clinic entrance.
       The CBOC is Americans with Disabilities Act
       accessible.
       The furnishings are clean and in good repair.
       The CBOC is clean.
       The CBOC maintains a written, current
       inventory of hazardous materials and waste
       that it uses, stores, or generates.
       An alarm system and/or panic buttons are
       installed and tested in high-risk areas (e.g.,
       MH clinic).
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
       The CBOC has a separate storage room for
       storing medical (infectious) waste.
       The CBOC conducts fire drills at least every
       12 months.)
       Means of egress from the building are
       unobstructed.
       Access to fire extinguishers is unobstructed.
       The CBOC has signs identifying the locations
       of fire extinguishers.
       Exit signs are visible from any direction.
       No expired medications were noted during the
       onsite visit.




VA OIG Office of Healthcare Inspections                                                               3
                              CBOC and PCC Reviews at Southern Arizona VA Health Care System, Tucson, AZ


NM              Areas Reviewed (continued)                                  Findings
       All medications are secured from
       unauthorized access.
       Personally identifiable information is protected
       on laboratory specimens during transport so
       that patient privacy is maintained.
       Adequate privacy is provided to patients in
       examination rooms.
       Documents containing patient-identifiable
       information are not laying around, visible, or
       unsecured.
       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
 X     Adequate privacy is provided to women                 The examination room designated for
       veterans in the examination room.                      women veterans at the Casa Grande CBOC
                                                              was not equipped with either an electronic
                                                              or manual door lock.
                                                             Gowned women veterans at the Casa
                                                              Grande, Green Valley, and Safford CBOCs
                                                              cannot access gender-specific restrooms
                                                              without entering public areas.
 X     The IT network room/server closet is locked.          The IT network room/server closet at the
                                                              Green Valley CBOC was not locked.
                                                             The IT network room/server closet at the
                                                              Green Valley and Safford CBOCs were
                                                              used as multi-purpose rooms and access
                                                              was not documented or restricted to
                                                              personnel authorized by OIT.

       All computer screens are locked when not in
       use.
       Staff uses privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
       EOC rounds are conducted semi-annually (at
       least twice in a 12-month period) and
       deficiencies are reported to and tracked by the
       EOC Committee until resolution.
       The CBOC has an automated external
       defibrillator.
       Safety inspections are performed on the
       CBOC medical equipment in accordance with
       Joint Commission standards.
       The parent facility includes the CBOC in
       required education, training, planning, and
       participation leading up to the annual disaster
       exercise.




VA OIG Office of Healthcare Inspections                                                                4
                              CBOC and PCC Reviews at Southern Arizona VA Health Care System, Tucson, AZ


NM              Areas Reviewed (continued)                                Findings
       The parent facility’s Emergency Management
       Committee evaluates CBOC emergency
       preparedness activities, participation in annual
       disaster exercise, and staff training/education
       relating to emergency preparedness
       requirements.

Recommendations

1. We recommended that the door to the examination room designated for women veterans is
equipped with an electronic or manual lock at the Casa Grande CBOC.

2. We recommended that processes are strengthened to ensure women veterans can access
gender-specific restrooms without entering public areas at the Casa Grande, Green Valley, and
Safford CBOCs.

3. We recommended that the information technology server closets at the Green Valley and
Safford CBOCs are maintained according to information technology safety and security
standards.




VA OIG Office of Healthcare Inspections                                                               5
                              CBOC and PCC Reviews at Southern Arizona VA Health Care System, Tucson, AZ


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.2

We reviewed relevant documents. We also reviewed 37 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. AUD

NM                     Areas Reviewed                                        Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least annually.
       Diagnostic assessments are completed for
       patients with a positive alcohol screen.
       Education and counseling about drinking
       levels and adverse consequences of heavy
       drinking are provided for patients with positive
       alcohol screens and drinking levels above
       National Institute of Alcohol Abuse and
       Addiction guidelines.
       Documentation reflects the offer of further
       treatment for patients diagnosed with alcohol
       dependence.
 X     For patients with AUD who decline referral to      CBOC/PCC staff did not monitor the alcohol use
       specialty care, CBOC/PCC staff monitored           of two of four patients who declined referral to
       them and their alcohol use.                        specialty care.
       Counseling, education, and brief treatments
       for AUD are provided within 2 weeks of
       positive screening.
 X     CBOC/PCC RN Care Managers have                     We found that 17 of 25 RN Care Managers did
       received motivational interviewing training        not receive motivational interviewing training
       within 12 months of appointment to PACT.           within 12 months of appointment to PACT.
 X     CBOC/PCC RN Care Managers have                     We found that 25 of 25 RN Care Managers did
       received VHA National Center for Health            not receive health coaching training within 12
       Promotion and Disease Prevention-approved          months of appointment to PACT.
       health coaching training (most likely TEACH
       for Success) within 12 months of appointment
       to PACT.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

4. We recommended that CBOC/Primary Care Clinic staff document a plan to monitor the
alcohol use of patients who decline referral to specialty care.




VA OIG Office of Healthcare Inspections                                                                      6
                              CBOC and PCC Reviews at Southern Arizona VA Health Care System, Tucson, AZ


5. We recommended that CBOC/Primary Care Clinic Registered Nurse Care Managers receive
motivational interviewing and health coach training within 12 months of appointment to Patient
Aligned Care Teams.




VA OIG Office of Healthcare Inspections                                                               7
                              CBOC and PCC Reviews at Southern Arizona VA Health Care System, Tucson, AZ


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.3

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 4. Fluoroquinolones

NM                     Areas Reviewed                                         Findings
 X     Clinicians documented the medication              We did not find documentation that medication
       reconciliation process that included the          reconciliation included the newly prescribed
       fluoroquinolone.                                  fluoroquinolone in 16 (40 percent) of 40 patient
                                                         EHRs.
       Written information on the patient’s prescribed
       medications was provided at the end of the
       outpatient encounter.
       Medication counseling/education for the
       fluoroquinolone was documented in the
       patients’ EHRs.
 X     Clinicians documented the evaluation of each      Clinicians did not document the level of
       patient’s level of understanding for the          understanding for 29 (73 percent) of 40 patients.
       education provided.
       The facility complied with local policy.

Recommendations

6. We recommended that staff document that medication reconciliation was completed at each
episode of care where the newly prescribed fluoroquinolone was administered, prescribed, or
modified.

7. We recommended that staff document the evaluation of patient’s level of understanding for
the medication education.




VA OIG Office of Healthcare Inspections                                                                      8
                              CBOC and PCC Reviews at Southern Arizona VA Health Care System, Tucson, AZ


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.4

We reviewed the facility self-assessment, VHA and local policies, Primary Care Management
Module data, and supporting documentation for DWHPs’ proficiencies. The table below shows
the areas reviewed for this topic. The facility generally met requirements. We made no
recommendations.

Table 5. DWHP Proficiency

NM                    Areas Reviewed                                      Findings
       CBOC and PCC DWHPs maintained
       proficiency requirements.
       CBOC and PCC DWHPs were designated
       with the WH indicator in the Primary Care
       Management Module.




VA OIG Office of Healthcare Inspections                                                               9
                                                                     CBOC and PCC Reviews at Southern Arizona VA Health Care System, Tucson, AZ
                                                                                                                                   Appendix A


                                                                    CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.c
The table below provides information relative to each of the CBOCs.

                                                                                              d
                                                                                      Uniques                                  Encountersd

                                 Station                   CBOC
           Location      State              Localitye           f        MHg       PCh       Otheri      All       MHg        PCh       Otheri      All
                                    #                       Size
    NW Tucson Urban 1     AZ      678GF       Urban        Large          875     5,360      5,014      6,257      4,468     10,991    22,060     37,519
    Sierra Vista          AZ      678GA       Urban        Large         1,034    4,743      4,433      5,703      4,890     11,384    20,916     37,190
    SE Tucson Urban 2     AZ     678GG        Urban       Mid-Size        617     3,315      3,902      4,560      3,574     6,566     17,924     28,064
    Yuma                  AZ      678GB       Urban       Mid-Size        840     3,819      2,954      4,410      4,200     9,883      9,520     23,603
    Casa Grande           AZ      678GC       Urban       Mid-Size        706     2,736      3,595      4,131      4,073     6,350     17,505     27,928
    Green Valley          AZ      678GE       Rural       Mid-Size        220     1,900      1,081      2,003      921       4,341      2,227      7,489
    Safford               AZ      678GD       Rural        Small          131      795        279        861       480       2,010       476       2,966




c
  Includes all CBOCs in operation before March 31, 2013. 

d
   Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

July 1, 2012, through June 30, 2013, timeframe at the specified CBOC. 

e
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

f
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

g
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

h
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

i
  All other non-Primary Care and non-MH stop codes in the primary position.


VA OIG Office of Healthcare Inspections                                                                                                                    10
                        CBOC and PCC Reviews at Southern Arizona VA Health Care System, Tucson, AZ


                                   CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at each CBOC.j

         CBOC                     Specialty Care                Ancillary Servicesl               Tele-Health
                                    Servicesk                                                      Servicesm
NW Tucson Urban 1                   Optometry                      Pharmacy                    Tele Primary Care
                                                                 Rehabilitation
                                                                   Radiology
                                                                Diabetes Care
                                                                    Nutrition
                                                               MOVE! Programn
Sierra Vista                        Optometry                    Rehabilitation                Tele Primary Care
                                     Podiatry                      Audiology
                                    Pain Clinic                    Radiology
                                    Cardiology                 MOVE! Program
                                                                    Nutrition
                                                           Diabetic Retinal Screening
SE Tucson Urban 2                   Optometry                    Rehabilitation                Tele Primary Care
                                                                   Radiology
                                                                   Pharmacy
                                                               MOVE! Program
                                                                    Nutrition
                                                           Diabetic Retinal Screening
Yuma                                Pain Clinic                    Radiology                   Tele Primary Care
                                    Cardiology                     Pharmacy
                                                                 Rehabilitation
                                                               MOVE! Program
                                                                    Nutrition
                                                                   Audiology
Casa Grande                         Optometry                      Audiology                   Tele Primary Care
                                    Pain Clinic                    Radiology
                                     Podiatry                    Rehabilitation
                                                                   Pharmacy
                                                                    Nutrition
                                                               MOVE! Program
Green Valley                             ---                           ---                     Tele Primary Care
Safford                                  ---                           ---                     Tele Primary Care
 


j
  Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic 

Stops with a count ≥ 100 encounters during the July 1, 2012, through June 30, 2013, timeframe at the specified

CBOC. 

k
  Specialty Care Services refer to non-Primary Care and non-Mental Health services provided by a physician. 

l
  Ancillary Services refer to non-Primary Care and non-Mental Health services that are not provided by a physician. 

m
   Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/) 

n
  VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011. 


VA OIG Office of Healthcare Inspections                                                                           11
                                                                    CBOC and PCC Reviews at Southern Arizona VA Health Care System, Tucson, AZ
                                                                                                                                  Appendix B


                                                          PACT Compass Metrics





                                                                                                                                                                 
Data Definition.5 The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the appointment
or one of the telephone stop codes is in the primary position, and 350 stop codes is in the secondary position. The data is averaged from the national to the
division level.


VA OIG Office of Healthcare Inspections                                                                                                                   12
                                                                  CBOC and PCC Reviews at Southern Arizona VA Health Care System, Tucson, AZ




Data Definition.5 The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures. The
total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on the
1st and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure.


VA OIG Office of Healthcare Inspections                                                                                                                13
                                                                    CBOC and PCC Reviews at Southern Arizona VA Health Care System, Tucson, AZ




Data Definition.5 This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
primary care encounters WOP with a provider other than the patient’s PCP/AP. Blank cells indicate the absence of reported data.

VA OIG Office of Healthcare Inspections                                                                                                                  14
                                                                    CBOC and PCC Reviews at Southern Arizona VA Health Care System, Tucson, AZ




Data Definition.5 Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary
care patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are excluded
from this metric. Blank cells indicate the absence of reported data.

VA OIG Office of Healthcare Inspections                                                                                                                    15
                     CBOC and PCC Reviews at Southern Arizona VA Health Care System, Tucson, AZ
                                                                                   Appendix C
                              VISN Director Comments


               Department of
               Veterans Affairs                                 Memorandum


           Date:       March 25, 2014

          From:        Director, Southwest Health Care Network (10N18)

       Subject: 	      CBOC and PCC Reviews of the Southern Arizona VA
                       Health Care System, Tucson, AZ

             To:       Director, San Diego Office of Healthcare Inspections (54SD)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. 	I concur with the attached facility responses and action plans detained
           in this report of the CBOC and PCC Reviews of the Southern Arizona
           VA Health Care System, Tucson, AZ.

       2. 	 If you have additional questions or concerns, please contact Robert
           Baum, VISN 18 Executive Officer to the Network Director, at (480)
           397-2777.




VA OIG Office of Healthcare Inspections                                                     16
                     CBOC and PCC Reviews at Southern Arizona VA Health Care System, Tucson, AZ
                                                                                   Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                 Memorandum


           Date:       March 25, 2014

          From:        Director, Southern Arizona VA Health Care System (678/00)

       Subject:        CBOC and PCC Reviews of the Southern Arizona VA
                       Health Care System, Tucson, AZ

             To:       Director, Southwest Health Care Network (10N18)

        1. 	I concur with the findings and recommendations of the CBOC and PCC
            Reviews of the Southern Arizona VA Health Care System, Tucson,
            Arizona.

        2. 	 Attached are the facility actions taken as a result of these findings. If
            you have questions or require additional information, please contact
            Margaret C. Lumm, Clinical Director, Performance Management at
            (520) 629-1882.



             (original signed by:)

             Jonathan H. Gardner, MPA, FACHE




VA OIG Office of Healthcare Inspections                                                     17
                     CBOC and PCC Reviews at Southern Arizona VA Health Care System, Tucson, AZ


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the door to the examination room
designated for women veterans is equipped with an electronic or manual lock at the
Casa Grande CBOC.

Concur

Target date for completion: May 2014

Facility response: Locks are ordered and will be installed on exam room doors by May
2014. SAVAHCS will continue with our long-standing practice of placing a
chaperone/LPN staff member who is assisting the provider with the women health visits
outside the exam room door to ensure privacy for the patient and to assist the provider
as needed.

Recommendation 2. We recommended that processes are strengthened to ensure
women veterans can access gender-specific restrooms without entering public areas at
the Casa Grande, Green Valley, and Safford CBOCs.

Concur

Target date for completion: Safford CBOC; July 2014, Green Valley CBOC, Oct 2014,
Casa Grande CBOC, January 2015

Facility response: Current Green Valley and Safford CBOC construction projects will
mitigate this concern. Construction of the new Safford facility is underway and expected
to be activated in July 2014. Green Valley should start soon, based on contracting
feedback and will be completed no less than 160 days from construction onset. New
construction is required and will be planned with leasing for the Casa Grande CBOC to
enable access to a gender-specific restroom without entering public areas. Currently
there is no restroom with close proximity to examination rooms. Expected completion is
projected in January 2015. In the interim staff will utilize exams rooms in closest
proximity to the female restroom. Staff will ensure hallway privacy and escort female
patients.

Recommendation 3. We recommended that the information technology server closets
at the Green Valley and Safford CBOCs are maintained according to information
technology safety and security standards.

Concur



VA OIG Office of Healthcare Inspections                                                     18
                     CBOC and PCC Reviews at Southern Arizona VA Health Care System, Tucson, AZ


Target date for completion: January 2015

Facility response: Concerns with both the Green Valley and Safford server closets will
be mitigated with the construction projects in process for both CBOCs. Green Valley
CBOC projected activation is Oct 2014 and Safford CBOC is July 2014. In the interim
staff will ensure the door is locked and staff will be required to sign in.

Recommendation 4.       We recommended that CBOC/Primary Care Clinic staff
document a plan to monitor the alcohol use of patients who decline referral to specialty
care.

Concur

Target date for completion: May 2014

Facility response: The AUDIT-C provider screen template will be revised to insure a
plan is outlined for the patient for follow-up monitoring, education, and referrals to other
care team members or specialties as appropriate. Refresher education will be delivered
to primary care providers on the importance of developing and documenting a plan to
follow patients who decline referral to specialty care during their annual AUDIT-C
screen.

Recommendation 5. We recommended that CBOC/Primary Care Clinic Registered
Nurse Care Managers receive motivational interviewing and health coaching training
within 12 months of appointment to Patient Aligned Care Teams.

Concur

Target date for completion: Completed March 2014

Facility response: At the time of the March 2014 OIG site visit all current PACT RNs had
received motivational interviewing and health coaching training. To ensure RN Care
Managers meet the requirement in the future, new RN Care Managers will be scheduled
for the next quarterly TEACH and health coaching class as a part of their new staff
orientation schedule. Successful and timely training completion will be monitored by the
supervisor and the care line.

Recommendation 6.        We recommended that staff document that medication
reconciliation was completed at each episode of care where the newly prescribed
fluoroquinolone was administered, prescribed, or modified.

Concur

Target date for completion: June 2014

Facility response: Fluoroquinolone prescribing will be restricted to a guided note in the
EHR. The note will contain the required documentation for medication reconciliation.



VA OIG Office of Healthcare Inspections                                                     19
                     CBOC and PCC Reviews at Southern Arizona VA Health Care System, Tucson, AZ




Recommendation 7. We recommended that staff document the evaluation of patient’s
level of understanding for the medication education.

Concur

Target date for completion: June 2014

Facility response: Fluoroquinolone prescribing will be restricted to a guided note in the
EHR. The note will contain the required documentation for medication education and
level of understanding.




VA OIG Office of Healthcare Inspections                                                     20
                     CBOC and PCC Reviews at Southern Arizona VA Health Care System, Tucson, AZ
                                                                                    Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Josephine Biley Andrion, RN, MHA, Team Leader
Contributors            Sandra Khan, RN, BSN
Other                   Lin Clegg, PhD
Contributors            Matt Frazier, MPH, MBA
                        Deborah Howard, RN, MSN
                        Derrick Hudson
                        Zhana Johnson, CPA
                        Jeff Joppie, BS
                        Glen Pickens, RN, MHSM
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                     21
                     CBOC and PCC Reviews at Southern Arizona VA Health Care System, Tucson, AZ
                                                                                    Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, Southwest Health Care Network (10N18)
Director, Southern Arizona VA Health Care System (678/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Jeff Flake, John McCain
U.S. House of Representatives: Ron Barber, Paul Gosar, Raul Grijalva,
 Anne Kirkpatrick


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                     22
                          CBOC and PCC Reviews at Southern Arizona VA Health Care System, Tucson, AZ
                                                                                        Appendix G

                                                   Endnotes 


1
    References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
     Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
2
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention (NCP), Veteran Health Education and Information
   (NVEI) Program, Patient Education: TEACH for Success. Retrieved from
   http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_2
   013_FY12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
3
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
4
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
5
  Reference used for PACT Compass data graphs:
	 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                    23
